Before the Appropriations Committee
Subcommittee on Transportation,
Housing and Urban Development, and Related Agencies
United States Senate

For Release on Delivery
Expected at
9:30 a.m. EDT
                          FAA’s FY 2008 Budget
Thursday
May 10, 2007
                          Request: Key Issues
                          Facing the Agency
CC-2007-054




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Murray, Ranking Member Bond, and Members of the Subcommittee:

We appreciate the opportunity to testify today regarding the Federal Aviation
Administration’s (FAA) fiscal year (FY) 2008 budget request. Our testimony will
focus on the key issues that will frame FAA’s financial requirements over the next
several years.

A significant challenge facing FAA today is how to move forward with the next
generation air transportation system. The current system handles over 700 million
passengers per year, a number that will grow to over 1 billion travelers by 2015. This
system must also be poised for the introduction of thousands of very light jets 1 during
the same timeframe. This influx of new aircraft will strain the Agency’s air traffic
control systems and its inspection and certification workforces.

FAA oversees the busiest and most complex aviation system in the world. In 2006,
FAA enroute centers—facilities that manage high-altitude traffic—handled 46 million
operations, which approximated the activity levels in 2000. However, with respect to
delays, operational performance of the National Airspace System (NAS) slipped
slightly in 2006 with one in four flights arriving late, the worst level since 2000.

It is against this backdrop that we would like to discuss FAA’s FY 2008 budget
request. FAA is presenting its $14.1 billion budget request in a new format and
structure that mirror its plans to reform how the Agency is financed. Currently, FAA
is financed by two mechanisms: excise taxes (primarily those from ticket taxes on
airfare) and a contribution from the General Fund. FAA has proposed changing that
revenue stream to one that is based primarily on user fees; Congress is currently
deliberating that proposal.

The focus of our testimony today, Madam Chairman, is that regardless of the funding
mechanism ultimately decided upon by Congress, a number of “front-and-center”
issues demand attention and will shape FAA’s requirements over the next several
years. These include the following:

Keeping Existing Modernization Efforts on Track and Reducing Risks With the
Next Generation Air Transportation System (NextGen): FAA is requesting
$2.46 billion for its capital programs in FY 2008, the majority of which is for the Air
Traffic Organization’s capital efforts. The FY 2008 request also includes funding for
key NextGen initiatives, such as the Automatic Dependent Surveillance–Broadcast
Program (ADS-B) and the System Wide Information Management Program (SWIM),
and for demonstration projects.

1
    These are small, “affordable” aircraft that will carry up to six passengers. Priced as low as $1 million per
    aircraft, very light jet manufacturers anticipate that these aircraft will find a niche among corporate and
    private owners and as on-demand air taxi services. According to FAA, up to 5,000 very light jets will vie for
    airspace by 2017.


                                                                                                               1
Currently, we are reviewing the progress of 18 projects with a combined cost of
$17 billion. We do not see the massive cost growth and schedule slips that we have in
the past with FAA’s major acquisitions. This is due to FAA’s efforts to re-baseline
major efforts and segment investment decisions. However, there are projects, such as
FAA’s Telecommunications Infrastructure program, that are at risk of not achieving
expected cost savings and benefits because of schedule slips.

We are also concerned about further cost increases and schedule slips with the Airport
Surface Detection Equipment Model-X (ASDE-X), which is an important program to
reduce the risks of accidents on runways. It is planned to improve airport safety by
operating in all-weather and low-visibility conditions (e.g., fog, rain, and snow) when
controllers cannot see activity on ramps, runways, and taxiways. ASDE-X was
initially designed to provide a low-cost alternative to FAA’s ASDE-3 radar systems
but has evolved into a different program. In September 2005, FAA increased ASDE-
X costs from $505.2 million to $549.8 million and extended the completion date from
2007 to 2011. In addition, the cost to acquire and install some key ASDE-X activities
has increased by $94 million since the 2005 re-baseline. To stay within the revised
baseline, FAA offset this cost by decreasing funds for seven program activities, such
as construction for later deployment sites.

As of March 2007, FAA had commissioned only 8 of the 35 ASDE-X sites. Of the
seven sites planned for FY 2006, FAA only commissioned four. Further, it is
uncertain when key safety features will be delivered. For example, FAA has yet to
commission an ASDE-X system that can alert controllers of potential collisions on
intersecting runways or converging taxiways. Because of these issues, the program is
at risk of not meeting its current cost and schedule plans to deliver all 35 ASDE-X
systems by 2011. We are reviewing ASDE-X and will issue a report later this year.

A central question in the debate about financing FAA is what it will cost to develop
and implement NextGen. The most current estimates suggest that the Agency will
require $15.4 billion for capital projects from FY 2008 to FY 2012. This includes
$4.6 billion for NextGen initiatives ($4.3 billion from the capital account and
$300 million from the Research Engineering and Development account). However,
we caution that there are still unknowns with respect to requirements for new
software, intensive automation systems, and data communications.             Further,
considerable development will be required to refine these concepts and determine
how systems can be certified as safe.

We recently made a number of recommendations 2 aimed at reducing risk with
NextGen, a multibillion-dollar effort that will dominate FAA’s capital account. We

2
    OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To Reduce
    Risks With the Next Generation Air Transportation System,” February 12, 2007. OIG reports and
    testimonies can be found on our website: www.oig.dot.gov.


                                                                                                 2
recommended that FAA provide Congress with costs along three vectors—research
and development, adjustments to existing projects, and funds for new initiatives. This
will help decision makers understand the magnitude of the effort and how additional
funds will be used. Given the high-risk nature of NextGen, we also recommended
that FAA articulate a strategy for how this extraordinarily complex effort will be
managed (beyond conducting demonstration projects) and what expertise will be
required to prevent past problems and successfully deliver new capabilities. FAA
concurred with our recommendations.

Addressing Attrition in FAA’s Critical Workforces: FAA is facing significant
attrition issues within two of its most critical workforces—air traffic controllers and
aviation safety inspectors. Ensuring that there are enough adequately trained and
certified professionals in these two fields is critical to the safety and efficiency of the
NAS and will remain a high priority for FAA and Congress over the next 10 years.

Through 2016, FAA must hire and train over 15,000 new controllers as controllers
hired after the 1981 strike begin retiring. In December 2004, FAA developed a
comprehensive workforce plan to address this challenge and issued the first in a series
of annual reports to Congress. FAA issued its first update to the plan in June 2006
and its second update in March 2007.

In February, we issued the results of our review of FAA’s progress in implementing
its controller workforce plan. 3 Overall, we found that FAA continues to make
progress in implementing a comprehensive staffing plan to address the surge in
retirements. For example, we found that FAA has significantly improved its hiring
process and has made progress in reducing the time and costs to train new controllers.
However, further progress is still needed in key areas. Those include:

    • Completing validation of accurate facility-level staffing standards (a critical
      component because FAA has over 300 air traffic facilities with significant
      differences in air traffic levels and complexity),
    • Continuing efforts to reduce the time and costs associated with on-the-job training
      (the longest and most expensive portion of new controllers’ training),
    • Establishing baseline metrics to measure the effectiveness of controller
      productivity initiatives (FAA must ensure that reductions in staffing are a result of
      increased productivity and not simply fewer controllers controlling more traffic),
      and
    • Identifying the estimated total costs of the plan (which will significantly impact
      FAA’s operating cost requirements over the next 10 years).


3
    OIG Report Number AV-2007-032, “FAA Continues To Make Progress in Implementing Its Controller
    Workforce Plan, but Further Efforts Are Needed in Several Key Areas,” February 9, 2007.


                                                                                               3
We recommended that FAA include the progress made in validating facility staffing
standards in the next update of the plan along with the plan’s total estimated costs.
FAA concurred with our recommendations and included interim staffing ranges for all
facilities in its March 2007 update to the plan as well as the expected additional
personnel and compensation costs that it will incur for new controllers in training
each year through 2016. However, the actions needed to address this issue are
ongoing and, in some cases, it may be years before they are fully implemented. We
will continue to monitor and report on FAA’s efforts in addressing this challenge.

Like its controller workforce, FAA is facing significant attrition among its aviation
safety inspectors. FAA currently has 3,865 inspectors to oversee domestic and
foreign aspects of the largest, most complex aviation system in the world. Over
one-third of these inspectors (44 percent) will be eligible to retire by 2010.

FAA will never have an inspection workforce that is large enough to oversee all
aspects of aviation operations, but it is important for the Agency to ensure that its
inspectors are located where they are most needed. The National Research Council
recently completed its study4 of FAA’s current methods of allocating inspector
resources and concluded that the Agency’s current model is not effective. FAA must
develop a reliable staffing model to ensure that it has the right number of inspectors at
the right locations. FAA advised us that it intends to implement the Council’s
recommendations and has procured the services of an independent contractor to
obtain the most effective staffing mechanism. However, completion of this process is
likely years away.

Determining the Appropriate Amount of Airport Funding: The Airport
Improvement Fund (AIP) supports the airport system by providing funds to primarily
enhance safety and security, maintain the infrastructure, increase capacity, and
mitigate airport noise in surrounding communities. Over the last 2 years, FAA’s
budget requests for the AIP have been significantly less than authorized levels.
However, Congress has provided FAA with close to the Vision 100 5 authorized
amounts in FY 2005 and FY 2006.

In FY 2007, the AIP is funded at the 2006 level of $3.5 billion, which is a
$200 million reduction from the FY 2007 authorized level. For FY 2008, FAA has
requested $2.75 billion for the AIP—$950 million less than the FY 2007 Vision 100
authorized level.

With growing demands for airport improvement projects and potentially less AIP
funding available, AIP funds must be directed to the Nation’s highest priority projects
while meeting the unique needs of small airports. Given the growth in projected
4
    Study completed by the National Research Council of the National Academies, “Staffing Standards for
    Aviation Safety Inspectors,” September 20, 2006.
5
    Vision 100 – Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).


                                                                                                     4
passenger traffic and the Department’s commitment to accelerate major airport
infrastructure projects by giving priority treatment and resources to capacity projects,
it may be time to re-examine AIP funding levels and the type of projects funded.

For example, we found that under current AIP Military Airport Program set-aside
requirements, low-priority projects could be funded at an airport that meets set-aside
requirements while higher-priority projects at other airports could go unfunded. We
will report on FAA’s prioritization of AIP funds later this year.

Another important funding mechanism for airports are passenger facility charges
(PFC). PFCs have become an important funding mechanism for airports—between
1992 and 2006, FAA approved the collection of $57.3 billion in PFCs. Of this
amount, airports have collected approximately $22 billion, with another $2.6 billion
anticipated for 2007. Currently, PFCs are capped at $4.50 per segment of flight (a
maximum of $18.00 on a round trip). Over 75 percent (248 of 328 airports) of the
airports collecting a PFC charge the maximum amount. The current cap on PFCs has
significant implications for major airports’ capital expenditure plans because over
75 percent of the airports collecting PFCs are already charging the maximum amount,
and some airports are anticipating an increased PFC as part of major capital
improvement financing plans.

I would now like to discuss FAA’s FY 2008 budget request and these three areas in
greater detail. I will also provide our observations on FAA acquisition and
contracting issues.

FAA’S FY 2008 BUDGET
FAA is requesting $14.1 billion for FY 2008, a reduction of nearly $460 million from
the FY 2007 enacted levels, and $233 million from the FY 2006 actual levels. FAA is
presenting its budget request in a new format and structure that mirror its plans to
shift from the current excise taxes to a structure that relies on, among other things,
cost-based user fees. FAA anticipates that the new financing system will be
implemented in FY 2009.

For FY 2008, FAA has realigned its four accounts to better reflect its lines of business
and proposed financing system. The budget request shows the Operations and
Facilities & Equipment (F&E) accounts realigned into two new accounts. The first
account combines the Agency’s safety oversight, Commercial Space Transportation,
and staff offices into a single account called Safety and Operations. The second
account combines most of the Facilities and Equipment account with the Air Traffic
maintenance and other Operations account functions into the Air Traffic Organization
(ATO) account. The Airport Improvement Program and the Research, Engineering,
and Development (RE&D) accounts remain the same. FAA’s budget funds these four
accounts as follows:


                                                                                      5
    • For the Safety and Operations account, FAA is requesting $1.88 billion
      (13 percent of FAA’s total budget), an increase of $102 million over last year’s
      enacted amount for comparable functions. For safety-related functions, such as
      safety inspectors and certification activities, FAA is requesting $1.11 billion, an
      increase of $105 million from last year’s enacted amount.
    • For the ATO account, FAA is requesting $9.3 billion (66 percent of FAA’s total
      budget), an increase of $184 million over comparable functions in the FY 2007
      enacted budget. For the operation and maintenance of the air traffic control
      system, the Agency is requesting $6.96 billion, an increase of $225 million over
      last year’s amount. FAA is also requesting $2.34 billion in capital program funds
      for the ATO, a decrease of $41 million from last year’s enacted amount. Capital
      projects associated with other functions, such as safety, are now included in the
      Safety and Operations account.
    • For the AIP account, FAA is requesting $2.75 billion (20 percent of FAA’s total
      budget). This represents a $765 million decrease from the amounts provided in
      FY 2007. To put this figure into context, since FY 2001, the AIP account has
      been authorized at $3.2 billion or higher each year.
    • Finally, FAA is requesting $140 million for the RE&D account (1 percent of
      FAA’s total budget), an increase of $10 million from the FY 2007 enacted level.

  To demonstrate in terms of the old and new budget presentation, table 1 summarizes
  the FY 2008 budget request in last year’s four-account format.

                Table 1. FAA Budgets FY 2006 Through FY 2008
                                             ($ in Millions)
             Account                  FY 2006 Actual         FY 2007 Enacted              FY 2008*
                                                                                           Request
 Operations                                      $8,104                    $8,374               $8,726
 Facilities & Equipment                          $2,555                    $2,518               $2,462
 Airport Improvement Program                     $3,515                    $3,515               $2,750
 Research, Engineering, and                        $137                      $130                  $140
 Development
  Total                                         $14,310                   $14,537                 $14,077
 Source: FAA’s FY 2008 Budget Request and FAA’s Office of the Budget
*We summarized FAA’s FY 2008 budget request using the previous format for comparative purposes.
 Note: Figures may not add up exactly due to rounding.

  The FY 2008 budget would be financed by the two mechanisms currently used to
  fund FAA: excise taxes deposited into the Airport and Airway Trust Fund and a
  General Fund contribution. The Trust Fund, which was created in 1970, provides
  FAA with a dedicated revenue source for funding aviation programs.




                                                                                                       6
Initially envisioned as a means to fund the infrastructure and modernization needs of
the NAS, the Trust Fund also pays for large portions of FAA’s operating budget, the
Essential Air Service Program, and one-time items (e.g., security funding after the
September 11, 2001, attacks). The General Fund is used to make up the difference
between Trust Fund revenues and the unfunded portion of FAA’s budget.

For FY 2008, FAA expects the Trust Fund to contribute $11.5 billion, or 81 percent,
toward its total budget and the General Fund to contribute $2.6 billion, or 19 percent.
These amounts are similar to what has been budgeted in the previous 4 years. Table 2
shows the contribution from each of the funding sources toward FAA’s proposed new
accounts.

                     Table 2. Funding Source Contributions
                                             ($ in Millions)
              Account                   Airport and Airway      General Fund    Total
                                            Trust Fund
  Air Traffic Organization                     $7,915 (85%)      $1,393 (15%)     $9,308
  Safety and Operations                          $672 (36%)      $1,208 (64%)     $1,879
  Airport Improvement Program                $2,750 (100%)            $0 (0%)     $2,750
  Research, Engineering, and                     $123 (88%)         $17 (12%)       $140
  Development
   Total                                        $11,459 (81%)    $2,618 (19%)   $14,077
  Source: FAA’s FY 2008 budget submission to Congress
  Note: Percentages in table are toward the total budget.
  Note: Figures may not add up exactly due to rounding.


KEEPING EXISTING MODERNIZATION EFFORTS ON TRACK AND
REDUCING RISKS WITH NEXTGEN
FAA faces challenges in maintaining existing systems while developing and
implementing new capabilities to meet the anticipated demand for air travel. For
fiscal year (FY) 2008, FAA is requesting $2.46 billion in capital funds, the majority
of which ($2.3 billion) is for Air Traffic Organization (ATO) efforts to modernize the
NAS. Over the last several years, increasing operating costs have crowded out funds
for the capital account. Since FY 2005, capital funding requests have leveled off,
falling within the range of $2.4 billion to $2.5 billion, well below the levels
authorized in the Vision 100 Act. Another trend has been FAA’s decision to cancel,
defer, and segment acquisitions while the capital budget stayed essentially flat.
Further, only about 50 percent of FAA’s capital budget goes to air traffic systems; the
remainder goes to personnel, mission support, and facilities (i.e., sustainment).
Although a large portion of FAA’s capital funds will go toward sustainment, FAA is
requesting additional funds for key technologies for NextGen. These include the
following:




                                                                                           7
    • Automatic Dependent Surveillance-Broadcast (ADS-B) 6 is a satellite-based
      technology that allows aircraft to broadcast their position to others. FAA
      requested $80 million in FY 2007 for this satellite-based technology. For FY
      2008, it is requesting $85.7 million. FAA expects to award a contract for the
      installation and maintenance of the ADS-B ground infrastructure in 2007.
      However, a number of challenges must be addressed. These include conducting
      human factors work and determining how air and ground elements will be certified
      as safe. FAA may have to rely on a rulemaking initiative to help speed ADS-B
      airspace user equipage. The current cost estimate for ADS-B is approximately
      $1.2 billion, and FAA is planning to re-baseline the ADS-B costs this summer.

    • System Wide Information Management (SWIM) is a new information
      architecture that will allow airspace users to securely and seamlessly access a wide
      range of information on the status of the NAS and weather conditions. It is
      analogous to an internet system for all airspace users. FAA requested $24 million
      for this program in FY 2007. For FY 2008, it is requesting $21.3 million. The
      cost to fully implement SWIM is unknown, and we note that SWIM is scheduled
      to be reviewed by FAA’s Joint Resources Council this June.

In its FY 2008 budget submission, FAA is requesting funds for new NextGen
initiatives, such as NextGen Data Communication ($7.4 million), NextGen Network
Enabled Weather ($7 million), and a new National Airspace System Voice Switch
($3 million). FAA is also requesting $50 million for demonstration and infrastructure
projects.

We are tracking 18 programs with a combined acquisition cost of $17 billion. Today,
we will highlight (1) FAA’s progress and problems with key modernization efforts
and (2) FAA actions needed to reduce risk with NextGen.

FAA’s Progress and Problems With Ongoing Modernization Projects
We do not see the massive cost growth that we have in the past with FAA
acquisitions. This is due to FAA’s efforts to re-baseline programs and segment
investment decisions. However, we found that several projects (totaling of $6 billion
in capital investment costs) will require significant attention and oversight because of
their size, diminishing benefits, potential cost and schedule problems, or importance
to the NextGen transition. These are discussed below.


6
    The first phase of ADS-B implementation, known as ADS-B out, is expected to replace many ground radars
    that currently provide aircraft surveillance with less costly ground-based transceivers. Aircraft would be
    equipped with ADS-B out, which broadcasts a signal to these transceivers. However, implementing ADS-B
    out is just the first step to achieving the larger benefits of ADS-B, which would be provided by ADS-B in.
    ADS-B in would allow aircraft to receive signals from ground-based transceivers or directly from other
    aircraft equipped with ADS-B. This could allow pilots to “see” nearby traffic and, consequently, transition
    some responsibility for maintaining safe separation from the air traffic controllers to the cockpit.


                                                                                                             8
En Route Automation Modernization (ERAM): This program is intended to
replace the “Host” computer network—the central nervous system for facilities that
manage high-altitude traffic. FAA requested $375.7 million for ERAM in FY 2007.
For FY 2008, it is requesting $368.8 million. The first ERAM system is scheduled to
be fielded by December 2009. While providing some enhancements, ERAM is
essentially a one-for-one replacement for the existing “Host” computer system. As
currently structured, ERAM will have two follow-on software releases (releases 2 and
3) valued at $83 million; these are still undefined. ERAM is expected to provide the
basic platform for NextGen’s automated capabilities.

With an acquisition cost of $2.1 billion and a monthly expenditure or “burn rate” of
$31 million, this program continues to be one of the most expensive and complex
acquisitions in FAA’s modernization portfolio.              While currently on track,
considerable testing and integration work lies ahead. The next major milestone is
completion of Factory Acceptance Testing, 7 which is planned for June 2007. Any
ERAM cost increase or schedule slip will have an impact on other capital programs
and could directly affect the pace of the overall transition to NextGen.

Federal Aviation Administration Telecommunications Infrastructure (FTI): The
FTI program is to replace seven FAA-owned and -leased telecommunications
networks with a single network that will provide FAA with telecommunications
services through 2017. FAA expects that FTI will significantly reduce its operating
costs after the new network is completed. In FY 2007, FAA requested $28 million for
the FTI program. For FY 2008, it is requesting $8.5 million. The vast majority of
FTI, however, is funded out of the Operations Account as opposed to the Facilities
and Equipment account, which funds most acquisitions. For FY 2008, FAA estimates
that it will need $210 million to support FTI operations. Additionally, FAA is
planning to request another $91 million to maintain legacy network operations until
the FTI transition is complete.

In April 2006, we reported 8 that FTI was a high-risk and schedule-driven effort that
was unlikely to meet its December 2007 completion date. We found that FAA needed
to improve management controls over FTI by developing a realistic master schedule
and an effective transition plan. Since our report, the Agency has extended the FTI
completion date to December 2008; this represents a 1-year schedule delay. In May
2006, we began a follow-up review of FTI. To its credit, FAA is making significant
progress in delivering FTI services. As of March 31, 2007, 10,973 of about
21,820 services were operating on FTI.

7
    Factory Acceptance Testing is defined by FAA as formal testing conducted by the contractor to verify that the
    production item conforms to all contract specifications, is free from manufacturing defects, and meets all
    system requirements.
8
    OIG Report Number AV-2006-047, “FAA Telecommunications Infrastructure Program: FAA Needs To Take
    Steps To Improve Management Controls and Reduce Schedule Risks,” April 27, 2006.


                                                                                                               9
As a result of the delay, FAA’s Joint Resources Council approved a new cost baseline
for FTI in August 2006. FAA increased its acquisition costs to develop the FTI
network by an additional $8.6 million (from $310.2 to $318.8 million) and increased
its overall operations costs to support FTI network and legacy networks by about
$100 million (from $3.0 to $3.1 billion).

We also continue to see an erosion of expected FTI cost savings. For example, in
October 2005, the Program Office reported a reduction in the benefit estimate from
$820 million to $672 million. By the end of FY 2006, we estimate that FTI cost
savings decreased from $672 million to $442 million, including sunk costs.
Moreover, since FAA has not yet validated the FTI cost and benefits estimates that
were approved in August 2006—an action that we recommended and that FAA
agreed to take—the true FTI costs and benefits remain unknown.

FAA continues to face challenges in making the transition to FTI. For instance, FAA
currently has a large backlog of FTI services (averaging about 1,800 services over the
last 3 months) that need to be addressed. The backlog includes failed transitions, on-
hold services, misconfigured [sic] equipment, and obsolete services. Additionally, the
transition of digital services, such as critical radar and flight data, to FTI continues to
be problematic. Some digital services were placed on “national hold” while
engineering solutions could be developed.

In addition, FAA needs to ensure that it has an effective strategy to address FTI
reliability and customer service problems. For example, many FTI services are not
meeting reliability standards and are not being restored to service within contractual
timeframes after outages. These problems led to unscheduled outages of both primary
and back-up services, which led to flight delays. For example, on January 9, 2007,
the Salt Lake City en route center experienced a 3-hour outage that caused
90 departure delays due to an FTI maintenance contractor trying to upgrade
operational FTI equipment.

Overall, key watch items for FTI include addressing the backlog of services,
improving FTI reliability and customer service, stopping the erosion of expected cost
benefits, and validating costs. Recently, FAA completed negotiations with Verizon
Business to extend LINCS 9 (FAA’s largest and costliest existing network to be
replaced by FTI), which expired in April 2007. FAA has agreed to a $92 million
ceiling price to extend LINCS until April 2008. We will be reporting on the FTI
program later in the year.

Airport Surface Detection Equipment-Model X (ASDE-X): ASDE-X is an
important safety initiative planned to reduce the risks of accidents on runways. In FY

9
    In March 2007, about 43 percent of LINCS A-nodes had been decommissioned.



                                                                                        10
2007, FAA requested $63.6 million for the ASDE-X program. For FY 2008, it is
requesting $37.9 million.

ASDE-X is FAA’s latest effort designed to provide controllers with positive
identification of aircraft and vehicle positions on the airport surface. It is planned to
improve airport safety by operating in all-weather and low-visibility conditions (e.g.,
fog, rain, and snow) when controllers cannot see surface movement on ramps,
runways, and taxiways.

ASDE-X was initially designed to provide a low-cost alternative to FAA’s ASDE-3
radar systems for small- to medium-sized airports but has evolved into a different
program. FAA made a significant change to the scope of the program in September
2005 and now intends to upgrade ASDE-3 systems with ASDE-X capabilities at
25 large airports and install the system at 10 other airports that currently lack surface
surveillance technology. In September 2005, FAA increased ASDE-X costs from
$505.2 million to $549.8 million and extended the completion date from 2007 to
2011.

We are concerned about further cost increases and schedule delays with this program
since the cost to acquire and install some ASDE-X activities has increased by
$94 million since the 2005 re-baseline. To stay within the revised baseline, FAA
offset this cost by decreasing planned expenditures funds for seven other program
activities, such as construction for later deployment sites.

We are also concerned that the ASDE-X schedule is not realistic. As of March 2007,
FAA had commissioned only 8 of the 35 ASDE-X sites. Of the seven sites planned
for FY 2006, FAA only commissioned four. Further, it is uncertain when key safety
features will be delivered. For example, FAA has yet to commission an ASDE-X
system that can alert controllers of potential collisions on intersecting runways or
converging taxiways. Because of these issues, the program is at risk of not meeting
its current cost and schedule plans to deliver all 35 ASDE-X systems by 2011. We
are reviewing ASDE-X and will issue a report later this year.

Air Traffic Management (ATM): ATM includes the Traffic Flow Management–
Modernization (TFM-M) program and the Collaborative Air Traffic Management
Technologies (CATMT) program. TFM-M modernizes the TFM system, which is the
Nation’s single source for capturing and disseminating air traffic information to
reduce delays and make maximum use of system capacity. CATMT provides new
decision support tools to deliver additional user benefits and increase effective NAS
capacity. At a cost of $450 million, these are two key efforts for coordinating air
traffic across the NAS and managing the adverse impacts of bad weather. In FY
2007, FAA requested $79 million for ATM programs. For FY 2008, it is requesting
$91 million.



                                                                                      11
Although the TFM-M effort has not experienced cost increases or schedule delays, we
are concerned about risks and what will ultimately be delivered. Our concerns are
based on the fact that FAA and the contractor significantly underestimated the size
and complexity of TFM-M software development. FAA was pursuing TFM-M
through a cost-reimbursable agreement, meaning that all risk for cost growth rested
with the Government. FAA has modified the contract and adjusted the scope of work.
The current risks for TFM-M focus on developing complex software, integrating
TFM-M with other NAS systems, and stabilizing requirements.

Terminal Modernization and Replacement of Aging Controller Displays: FAA’s
FY 2008 budget request calls for $40 million for efforts aimed at modernizing
controller displays and related automation systems at terminal facilities. FAA’s
budget states that three-fourths of the FY 2008 funds will be used for the Standard
Terminal Automation Replacement System (STARS) “technology refresh” (i.e.,
replacing obsolete components) and software enhancements.

FAA’s past modernization efforts have focused exclusively on STARS. In 2004,
faced with cost growth in excess of $2 billion for STARS, FAA rethought its terminal
modernization approach and shifted to a phased process. FAA committed STARS to
just 50 sites at an estimated cost of $1.46 billion as opposed to the original plan to
deploy STARS at 172 sites at a cost of $940 million. 10 FAA renamed this
modernization effort the Terminal Automation Modernization-Replacement (TAMR)
initiative.

In 2005, FAA approved modernizing five additional small sites with STARS and
replacing the aging displays at four large, complex facilities at a cost of $57 million.
This leaves over 100 sites that still need to be modernized. Although FAA has not
decided on how it will modernize these 100 sites, its budget submission indicates that
this effort could cost over $1 billion.

There is no current defined “end state” for terminal modernization, and past problems
with developing and deploying STARS leave FAA in a difficult position to begin
transitioning to NextGen capabilities. Future costs will be shaped by (1) NextGen
requirements, (2) the extent of FAA’s terminal facilities consolidation, and (3) the
need to replace or sustain existing (or legacy) systems that have not yet been
modernized.

Without question, the most urgent concern facing terminal modernization is how
quickly FAA can replace aging displays at the four large sites that are particularly
critical to the NAS—Chicago, Illinois; Denver, Colorado; St. Louis, Missouri; and
Minneapolis, Minnesota. FAA chose not to compete this work based on a joint

10
     OIG Report Number AV-2005-016, “Terminal Modernization: FAA Needs To Address Its Small, Medium,
     and Large Sites Based on Cost, Time, and Capability,” November 23, 2004.


                                                                                                 12
proposal from two contractors and instead decided to modify the current STARS
contract to include the work. This was expected to expedite replacement of the aging
displays, but the time spent revising the contract to establish cost, schedule, and
design parameters caused FAA to lose the time advantage from foregoing
competition. As a result, the aging displays will not be replaced until 2008. We
recommended action on this matter over 2 years ago in November 2004.

Advanced Technology and Oceanic Procedures (ATOP): FAA requested
$31.4 million in FY 2007. For FY 2008, it is requesting $53.1 million. ATOP is
FAA’s $548 million effort to modernize how controllers manage oceanic flights.
FAA now has ATOP in use at Oakland, California; New York, New York; and
Anchorage, Alaska.

Since September 2005, FAA controllers have experienced recurring failures (loss of
data-link communication with aircraft and aircraft position jumps) with the new
ATOP system at the Oakland site. These problems directly limit the potential
capacity and productivity benefits from the new automation system. This could
impact FAA’s plans for using ATOP to demonstrate NextGen capabilities.

According to controllers, these incidents represent potentially hazardous safety
conditions that need to be resolved. The larger separation distances required between
aircraft over the oceans than for those in domestic airspace have allowed controllers
to manage these problems. However, benefits from the new automation system, such
as reduced separation, have not been fully realized. Problems persist in ATOP, as
evidenced by two operations bulletins (on aircraft altitude changes and detecting
conflicts between aircraft) issued by the Oakland facility in April. FAA needs to
resolve the problems that it has identified with communication service providers and
aircraft avionics and adjust ATOP software as needed to realize expected benefits.

Perspectives on FAA’s Metrics for Measuring Progress With Major
Acquisitions
FAA reports in its FY 2007 Flight Plan and the most recent Performance and
Accountability Report that 100 percent of its critical acquisitions were within
10 percent of budget estimates and 97 percent were on schedule for 2006. Currently,
FAA is tracking about 29 acquisitions, such as the acquisition of new radars. FAA’s
cost and schedule metrics are worthwhile tools for Agency management and oversight
of major acquisitions—a step we called for a number of years ago. However, these
metrics have limitations that need to be understood by decision makers in order to
properly assess the overall status of FAA’s acquisition portfolio.

First, FAA’s cost and schedule metrics are snapshots in time. They are not designed
to address changes in requirements, reductions in procured units, or shortfalls in
performance that occur over time. Second, FAA’s budget metrics involve
comparisons of cost estimates taken during the fiscal year. These estimates involve

                                                                                  13
the updated, “re-baselined” cost figures—not estimates from the original baseline.
This explains why the Wide Area Augmentation System (a satellite-based navigation
system) is considered “on budget” even though costs have grown from $892 million
to over $3 billion since 1998.

“Re-baselining” a project is important to get realistic cost and schedule parameters
and is consistent with Office of Management and Budget (OMB) guidance and the
Agency’s own Acquisition Management System. The revised baselines are used for
justifying budgets and making investment decisions, i.e., ensuring that major
acquisitions are still cost beneficial. We note that OMB allows FAA to measure
deviations from the new baselines once they have been approved. Nevertheless, such
comparisons of revised program baselines—absent additional information—fail to
provide an accurate picture of a program’s true cost parameters.

Finally, FAA’s schedule metrics used for assessing progress with several programs in
2006 were generally reasonable, but focused on interim steps or the completion of
tasks instead of whether systems met operational performance goals. For example,
ASDE-X metrics focused on delivery of two systems. This metric does not relate to
whether systems entered service or met operational performance expectations. We
note that there are no written criteria for selecting or reporting the milestones. Table 3
provides information on some of the metrics used for measuring progress in
acquisitions in FY 2006.

          Table 3. Metrics Used To Measure Programs in 2006
           Program                        Metric               Planned Date      Actual Date
   Airport Surface Detection   Deliver two systems       February 2006 February 2006
     Equipment Model-X
      Standard Terminal         Deliver to one site      February 2006 January 2006
   Automation Replacement
            System
   Air Traffic Management Conduct Detailed Design Review August 2006    March 2006
   Precision Runway Monitor    Complete Factory Acceptance        April 2006     April 2006
                                   Testing for Atlanta
   Wide Area Augmentation      Complete initial installation of September 2006    May 2006
          System                  two reference stations
   Source: FAA ATO-F Capital Expenditures Program Office

As FAA’s former chief operating officer stated, simply measuring cost and schedule
may not be sufficient in evaluating NextGen initiatives. We agree and believe it will
be important to focus on the promised capability and benefits of new initiatives,
particularly those associated with the goals of enhancing capacity, boosting
productivity, and reducing Agency operating costs. Therefore, FAA should explore a
wider range of metrics to measure—and report on—progress with NextGen efforts.



                                                                                               14
                             FAA Actions Needed To Reduce Risks With the Next Generation Air
                             Traffic Management System
                             The transition to NextGen is an extraordinarily complex, high-risk effort involving
                             billion-dollar investments by the Government and airspace users. We have made a
                             series of recommendations specifically aimed at reducing risk and facilitating the shift
                             from planning to implementation.

                             FAA needs to develop realistic NextGen cost estimates, quantify expected
                             benefits, and establish a road map for industry to follow. A central question in the
                             current debate on financing FAA is what the costs associated with developing and
                             implementing NextGen will be. Figure 1 illustrates FAA’s most recent cost estimates.

                                                            Figure 1. FAA Capital Funding Projections
                                                                      for FY 2008 to FY 2012
                                    $4,000.0


                                                NextGen Funding                                                         $3,506.3
                                    $3,500.0
                                                                                                           $3,353.0
                                                Remaining F&E
                                                                                        $3,114.7
                                    $3,000.0
                                                                     $2,958.8
F&E Budget Amounts ($ in millions




                                                                                                                        $1,294.6
                                                                                                            $1,256.4               NextGen Funding
                                                  $2,461.6           $652.8              $956.5
                                    $2,500.0                                                                                       includes ADS-B,
                                                  $174.4                                                                           SWIM, and future
                                                                                                                                   projects supporting
                                    $2,000.0                                                                                       NextGen.

                                                                                                                                   Remaining F&E
                                    $1,500.0                                                                                       includes funding for the
                                                                                                                                   existing projects,
                                                 $2,287.2            $2,306.0                                           $2,211.7   facilities, and support
                                    $1,000.0
                                                                                        $2,158.2            $2,096.6
                                                                                                                                   service contracts.

                                                                                                                                   Total NextGen FY2008 -
                                     $500.0
                                                                                                                                   FY2012 from capital
                                                                                                                                   account is $4.3 billion
                                       $0.0
                                                  FY 2008            FY 2009             FY 2010            FY 2011     FY 2012

                                                                                       Fiscal Year


                                       Source: FAA National Airspace System Capital Investment Plan FY 2008 – FY 2012


                             FAA estimates suggest that the Agency will require $15.4 billion for capital projects
                             from FY 2008 to FY 2012. This includes $4.6 billion for NextGen initiatives
                             ($4.3 billion from the capital account and $300 million from the RE&D account).

                             We note that the bulk of NextGen funds will be allocated to developmental efforts,
                             including demonstration projects. There are unknowns with respect to performance
                             requirements for new automation systems and data-link communications. The
                             development of new automation systems is a particular concern given their
                             complexity and the fact that almost flawless performance will be required. FAA will
                             not have a firm grasp on costs until it has a mature enterprise architecture and a
                             NextGen R&D plan that clearly indicates the contributions of other agencies.


                                                                                                                                          15
The costs for airspace users to equip with new avionics will be significant. The Joint
Planning and Development Office’s (JPDO) most recent progress report estimates the
cost for airspace users to be between $14 billion and $20 billion for the long term.
This underscores the need for FAA to have a clear understanding of complex
transition issues and what will be required to get expected benefits. Another cost
driver focuses on the extent to which FAA intends to consolidate facilities based on
modern technology. We recommended that when FAA reports NextGen costs to
Congress, it should do so along three vectors—research and development needed,
adjustments to existing projects, and costs for new initiatives. FAA agreed and stated
that it will build a comprehensive cost estimate this year.

More work remains to set expectations, requirements, and milestones—or “transition
benchmarks”—for developing when new procedures, new ground systems, and
aircraft need to be equipped to realize benefits. During an April 2006 workshop,
industry participants asked FAA for a “service roadmap” that (1) specifies required
aircraft equipage in specific time increments, (2) bundles capabilities with clearly
defined benefits and needed investments, and (3) uses a 4- to 5-year equipage cycle
that is coordinated with aircraft maintenance schedules. Once concepts and plans
have matured, it will be important for FAA to provide this information to industry.

FAA and the JPDO need to develop approaches for risk mitigation and systems
integration. FAA and the JPDO must articulate how they will do things differently
to avoid problems that affected modernization efforts in the past (such as cost growth,
schedule slips, and performance shortfalls). Developing and implementing NextGen
will be an enormously complex undertaking. As the JPDO notes in its December
2004 Integrated Plan, 11 “there has never been a transformation effort similar to this
one with as many stakeholders and as broad in scope.” The central issue is
determining what will be done differently from past modernization efforts with
NextGen initiatives (other than conducting demonstration projects) to ensure success
and deliver much needed benefits to FAA and airspace users.

FAA’s decision to use the Operational Evolution Plan (the Agency’s blueprint for
capacity) to help implement NextGen is a good first step. Nevertheless, the transition
to NextGen will pose complex software development and integration problems and
will require synchronized investments between FAA and airspace users over a
number of years.

To maintain support for NextGen initiatives, we recommended that the JPDO and
FAA articulate how problems that affected past modernization efforts will be
mitigated and what specific skill sets with respect to software development and
system integration will be required. This will help reduce cost and schedule problems


11
     JPDO “Next Generation Air Transportation System – Integrated Plan,” December 2004.


                                                                                          16
with NextGen initiatives. FAA concurred with our recommendations and stated that
it will form a panel of experts to examine the issues we raised.

FAA is requesting $50 million in its FY 2008 budget for demonstration projects,
which are important opportunities to reduce risk. In the past, FAA has experienced
problems with certifying systems as safe, which led to cost growth and schedule slips.
Therefore, we recommended, and FAA agreed, that planned NextGen demonstration
projects should develop sufficient data to establish a path for certifying new systems
and identify the full range of adjustments to policies and procedures needed for
success.

FAA needs to review ongoing modernization projects and make necessary cost,
schedule, and performance adjustments. As FAA’s budget request points out,
29 existing capital programs serve as “platforms” for NextGen. We recommended
that FAA review ongoing modernization programs to determine what adjustments in
cost, schedule, and performance will be required. This is critical because NextGen
planning documents suggest that billions of dollars will be needed to adjust ongoing
programs, like ERAM and TFM-M.

During FY 2007 through FY 2008, over 25 critical decisions must be made about
ongoing programs. These decisions will directly impact how quickly new capabilities
can be deployed and will involve establishing requirements for future ERAM
software releases, making investments to support existing radars, and incorporating
weather information into SWIM.

ADDRESSING ATTRITION IN FAA’S CRITICAL WORKFORCES
Controlling operating cost growth will remain a significant challenge for FAA as it
faces several workforce challenges in the coming year. Our office has an extensive
body of work regarding cost control and financial issues within FAA. For example, in
1999, we reported 12 that persistent cost growth in the Agency’s operating account
(primarily salary-driven) was “crowding out” critical capital investments in the
Agency’s modernization account. This is still a challenge today. As FAA focuses on
increasing workforce productivity and decreasing costs, it must also continue to
address the expected increase in air traffic controller and safety inspector retirements
and ensure that it has the right number of controllers and inspectors at the right
locations.




12
     OIG Report Number AV-1999-066, “Federal Aviation Administration’s Financing and Cost Control,” March 22, 1999.


                                                                                                                  17
FAA Continues To Make Progress in Implementing Its Controller
Workforce Plan, but Further Efforts Are Needed in Several Key Areas
In December 2004, FAA issued the first in a planned series of congressionally
directed annual reports that outline the Agency’s plans for hiring new controllers to
replace those expected to leave over the next 10 years. The 2004 plan also outlined
various initiatives for increasing controller productivity and for decreasing on-the-job
training (OJT) time and costs. FAA updated the 2004 plan in June 2006 and again in
March 2007.

In February 2007, we reported on the results of our review of FAA’s progress in
implementing key initiatives of its controller workforce plan. Overall, we found that
FAA continues to make progress in implementing a comprehensive and complex
staffing plan. For example, we found that FAA made significant improvements by
centralizing many aspects of its hiring process. We also found that FAA made
progress in reducing the time and costs to train new controllers, primarily through
greater use of simulator training at the FAA Training Academy, and implemented a
new national database to track on-the-job training statistics. Further progress is
needed, however, in several key areas.

First, FAA is still in the process of validating facility-level staffing standards, which
are a foremost necessity in effectively placing newly hired controllers where they are
most needed. Planning by location is critical because FAA has over 300 terminal and
en route air traffic control facilities with significant differences in the types of users
served, the complexity of airspace managed, and the levels of air traffic handled.
Without accurate facility-level planning, FAA runs the risk of placing too many or too
few controllers at these locations.

FAA is aware of this concern and is validating its facility staffing standards down to
the sector and position level for each location in order to develop accurate staffing
ranges for all of its facilities. FAA expects to complete this assessment for its 21 en
route centers (its largest facilities) by the end of this year. However, FAA does not
expect to complete the entire project, including terminal facilities, until late 2008. In
the interim, FAA established staffing ranges by facility, which take into account the
existing staffing standard models but also include facility manager input and expected
productivity improvements. Although these ranges are a step toward more accurate
controller levels, they are not a replacement for a facility-level staffing range based on
validated staffing standard models.

We recommended that FAA report the progress made in validating facility staffing
standards in its next annual update to the workforce plan, including the number of
facilities completed, the staffing ranges established for each location, and the
estimated completion date for all remaining facilities. FAA concurred with our



                                                                                       18
recommendation and included the interim staffing ranges for all facilities in its March
2007 update.

Second, FAA reached its goal of reducing controller staffing by 3 percent relative to
its national staffing standard for FY 2005, but it is unknown whether the initiatives
established in the 2004 plan were effective in helping achieve that reduction. FAA
introduced several initiatives in the 2004 plan intended to improve workforce
efficiency and controller productivity. Those initiatives include efficiencies such as
reducing the use of sick leave by 8 percent, ensuring appropriate use of workers’
compensation benefits, and increasing scheduling efficiencies.

FAA achieved a 3-percent productivity gain in FY 2005 by decreasing total controller
staffing by 3 percent relative to its national staffing standard, a goal established in the
2004 plan. However, it is unclear what, if any, additional impact FAA’s productivity
initiatives had on controller productivity because FAA did not establish baseline
metrics for measuring their effectiveness. We recommended that FAA establish
baseline metrics for the initiatives and update the plan annually to reflect actual
progress in achieving each initiative and, ultimately, in accomplishing its goal to
reduce controller staffing by 10 percent. FAA agreed to continue providing status
updates for the initiatives but stated that estimating the contribution of each initiative
would be labor intensive and costly and would divert resources.

We believe that FAA should reconsider its position. FAA runs the risk of simply
having fewer controllers controlling more traffic without the benefit of metrics to
determine if the productivity initiatives are driving the reductions in staffing. This is
important given that the Agency is still validating its staffing needs at the facility
level. FAA’s 2007 update did not include an update on its productivity goals.

We also recommended that FAA identify the annual and total costs for hiring,
training, and certifying new controllers to meet future requirements. The cost of
hiring and training over 15,000 new controllers will be substantial, particularly since
it currently takes 2 to 5 years for new controllers to become fully certified. During
that time, FAA incurs the cost of the trainee’s salary and benefits as well as the cost of
the salaries and benefits of the certified controllers who instruct trainees individually.
FAA concurred with our recommendation and included estimates for the salary and
benefit costs of newly hired controllers each year through 2016 in its March 2007
update to the plan.

An Evolving Aviation System Requires That FAA Maintain a Sufficient
Number of Safety Inspectors Positioned in the Right Locations
Safety is and must remain FAA’s highest priority. Although accidents have occurred
in recent years, the United States continues to maintain the safest aviation system in
the world. While much credit is due to safety systems that air carriers have built into
their operations, FAA regulations and inspectors play an important role in providing

                                                                                        19
an added layer of safety oversight. As shown in table 4, this oversight covers a vast
network of operators and functions, which make up the largest, most complex aviation
system in the world.

                           Table 4. FAA Inspectors’ Workload
                 Commercial Air               123       Flight Instructors        90,555
                 Carriers

                 Repair Stations            4,927       FAA Designee              11,000
                                                        Representatives

                 Active Pilots           744,803        Aircraft                 347,326

                 Approved                   1,738       FAA-Licensed             320,293
                 Manufacturers                          Mechanics

               Source: FAA

FAA’s 3,865 inspectors must oversee both domestic and foreign aspects of these
operations—a task made more difficult by the rapidly changing aviation environment.
To ensure that the system remains safe, FAA must maintain a sufficient number of
inspectors.

FAA needs effective oversight systems to maximize inspector resources. FAA
will never have an inspection workforce that is large enough to oversee every aspect
of aviation operations. As a result, FAA is working toward using risk-based safety
oversight systems—that is, systems that target inspection resources to areas of
greatest risk.

Without question, risk-based oversight is the best approach; however, our past reports
have identified a wide range of areas in which FAA should strengthen its inspector
oversight. For example, air carriers continue to increase their use of external
maintenance facilities, but FAA still needs to implement better processes to determine
where air carriers send their critical maintenance. In December 2005, we reported 13
that FAA must understand the full extent and type of work that is being performed by
non-certificated repair facilities. These facilities are not licensed or routinely visited
by FAA inspectors but perform critical maintenance, such as engine replacements.
FAA has yet to develop a process to determine which non-certificated repair facilities
perform this type of maintenance for air carriers. Until FAA knows where critical
maintenance is performed, it cannot ensure that it has focused its inspection resources
to areas of greatest risk.


13
     OIG Report Number AV-2006-031, “Review of Air Carriers’ Use of Non-Certificated Repair Facilities,”
     December 15, 2005.


                                                                                                     20
FAA developed a risk-based oversight system for FAA-certified repair stations;
however, it only recently completed full implementation of the system. If used
effectively, the new repair station oversight system should significantly improve
FAA’s ability to target resources to areas of higher risk in this growing segment of the
aviation industry.

A changing aviation environment requires strategic inspector placement. The
pace at which changes are occurring in today’s aviation environment makes it
imperative that FAA place sufficient resources in areas where they are most needed.
FAA has made at least two attempts to develop a staffing model to determine the
number of inspectors needed and the best locations for placement. Neither model,
however, provided FAA with an effective approach to allocate inspector resources. In
September 2006, the National Research Council completed a study of FAA’s current
methods for allocating inspector resources. This study validated a concern that we
have also reported—that FAA’s current method of allocating inspectors is antiquated
and must be redesigned to effectively target inspectors to those areas of higher risk.

In particular, the Council reported that the changing U.S and global aviation
environments have important implications that will be key drivers of future inspector
staffing needs. For example, airlines’ outsourcing of aircraft maintenance, FAA’s
shift to a system safety oversight approach, and safety inspectors’ attrition and
retirement are all important changes that must be considered in determining staffing
needs. This year, 28 percent (1,085 of the 3,865) of the current inspector workforce
will be eligible to retire. By 2010, 44 percent of the workforce will be eligible to
retire.

Unless FAA develops an effective staffing model, however, it will not be able to
make effective use of the resources that it obtains. Further, the Council stressed that
FAA must ensure that its safety inspectors are sophisticated database users, with
knowledge of system safety principles and an analytical approach to their work. In
addition, inspectors must maintain their capabilities to conduct thorough on-site
inspections of air carrier, aircraft maintenance, and aircraft manufacturer operations.

At the same time, FAA must prepare for emerging safety issues, such as very light
jets and unmanned aerial vehicles. For example, by 2017, approximately 5,000 new
aircraft known as very light jets will be an integral part of the U.S. aviation system.
These aircraft will be flown by a new class of pilots with mixed levels of expertise
and will vie for airspace with commercial jets. Three models of very light jets were
certified in 2006 for operation. As these become operational, FAA inspectors will
face new oversight challenges in every aspect of FAA’s operations, including
inspector oversight of pilot training and aircraft maintenance and air traffic control.




                                                                                     21
DETERMINING THE APPROPRIATE AMOUNT OF AIRPORT
FUNDING
In the months following the release of FAA’s reauthorization proposal, Congress,
FAA, and aviation stakeholders have been discussing important questions about how
to fund airport improvement projects. Key issues for the reauthorization debate will
be the FY 2008 AIP and PFC funding levels, project priorities, and project eligibility.

Airport Improvement Program
FAA is requesting $2.75 billion for the AIP in FY 2008. Since the current
authorization, Vision 100, expires in FY 2007, no AIP authorization target exists for
FY 2008. However, the FY 2008 request is a substantial reduction over the FY 2007
authorized level in Vision 100.

The AIP supports the airport system by providing funds to primarily enhance safety
and security, maintain the infrastructure, increase capacity, and mitigate airport noise
in surrounding communities. AIP authorized funding has steadily increased over the
last 9 years. As shown in figure 2, authorized funding increased by approximately
54 percent from 1999 to 2007. Since 2001, the AIP has been authorized at
$3.2 billion or higher in funding each year.

        Figure 2. AIP Authorized Funding Levels, 1999 to 2007
                                                       ($ in Millions)

                                   $3,600
                                   $3,400
                  Funding Levels




                                   $3,200
                                   $3,000
                                   $2,800
                                   $2,600
                                   $2,400
                                   $2,200
                                   $2,000
                                          99

                                                 00

                                                        01

                                                               02

                                                                      03

                                                                             04

                                                                                    05

                                                                                           06

                                                                                                  07
                                        19

                                               20

                                                      20

                                                             20

                                                                    20

                                                                           20

                                                                                  20

                                                                                         20

                                                                                                20




                                                                    Fiscal Year

               Sources: 1999-2003 Wendell H. Ford Aviation Investment and Reform
               Act for the 21st Century and the 2004-2007 Vision 100-Century of
               Aviation Reauthorization Act

As shown in table 5 below, 2 of the last 3 years’ budget requests have been
significantly less than authorized levels. The FY 2007 budget request for AIP funding
of $2.75 billion was nearly $1 billion less than authorized under Vision 100 for FY
2007.


                                                                                                       22
     Table 5. AIP Authorized and Budget Request Funding Levels
                       2005 to 2007 ($ in Millions)
            Fiscal Year             Authorized             Budget               Funding
                                                           Request               Level
       2005 (Vision 100)               $3,500              $3,500                $3,500
       2006 (Vision 100)               $3,600              $3,000                $3,500
       2007 (Vision 100)               $3,700              $2,750                $3,500
      Source: FAA budget submissions from FY 2005 through FY 2007

However, Congress has provided FAA with close to the Vision 100 authorized
amounts in FY 2005 and FY 2006. For FY 2007, the AIP is funded at $3.5 billion,
which is only a $200 million reduction from the FY 2007 authorized level, not the
nearly $1 billion reduction requested in FAA’s FY 2007 budget.

With the potential decrease in available AIP funds, FAA must take a more proactive
role in managing and overseeing airport grants. Since the early 1990s, we have
identified hundreds of millions of dollars in airport revenue diversions—revenues that
should have been used for the capital or operating cost of an airport but were instead
used for non-airport purposes. In the last 4 years, we reported on revenue diversions
of more than $50 million at seven large airports, including one airport whose
sponsor—a local government agency—diverted about $40 million to other projects
not related to the airport.

FAA is now taking a more active role to identify airport revenue diversions, but
airports must do their part to ensure that airport revenues are not used for non-airport
purposes. Similarly, as we testified last year, 14 ensuring that airports dispose of land
acquired for noise mitigation purposes when the land is no longer needed for noise
compatibility purposes or airport development would also provide additional funds for
airport projects. Our review 15 in 2005 of 11 airports identified approximately
$242 million that could be used for other noise mitigation projects at the respective
airports or returned to the Trust Fund.

With growing demands for airport improvement projects and potentially less AIP
funding available, AIP funds must be directed to the Nation’s highest priority projects
while meeting the unique needs of small airports. During our current review of the
AIP, we found that FAA policies and procedures, for the most part, ensure that these
high-priority projects are funded with AIP funds. We also found, however, that the




14
   OIG Report Number CC-2006-027, “Perspectives on FAA’s FY 2007 Budget Request and the Aviation Trust
   Fund,” March 28, 2006.
15
   OIG Report Number AV-2005-078, “Audit of the Management of Land Acquired Under the Noise
   Compatibility Program,” September 30, 2005.


                                                                                                   23
AIP Military Airport Program set-aside 16 (MAP) can result in low-priority projects
being funded at an airport that meets set-aside program requirements while higher-
priority projects at other airports could go unfunded.

In order to meet the required level of MAP set-aside funding of approximately
$34 million per year, the majority of projects being funded are comprised of lower-
priority projects as rated under FAA’s numerical rating system. FAA ranks projects
on a scale of 0 to 100. Projects rated at 40 or above are generally funded by FAA.
However, in FY 2006, 17 of 25 (68 percent) MAP projects with ratings ranging from
17 to 36 were funded at an estimated cost of $31 million, as a result of the MAP set-
aside funding requirements. For example, one project with a rating of 19 was funded
at a cost of more than $2.2 million to rehabilitate a parking lot.

Given the growth in projected passenger traffic and the Department’s commitment to
accelerate major airport infrastructure projects by giving priority treatment and
resources to capacity projects, it may be time to re-examine AIP set-aside funding
levels and the type of projects funded. We will report on FAA’s prioritization of AIP
funds later this year.

Passenger Facility Charges
In addition to AIP funds, PFCs have become an important funding mechanism for
airports. For instance, between 1992 and 2006, FAA approved the collection of
$57.3 billion in PFCs. Of this amount,
airports have collected approximately             Figure 3. Approved PFC Uses by Category
                                                               CYs 1992 to 2006
$22 billion, with another $2.6 billion
anticipated for 2007. In comparison,                                    Denver
                                                               Noise
                                                                          5.5%
airports received about $35.2 billion in                Access 4.8%                      Landside
AIP grants between 1992 and 2006, with                    6.8%                            34.7%

FAA requesting another $2.75 billion for
2007. Overall, airports anticipate using               Airside
34.7 percent of PFC collections to finance             16.7%           Interest
landside projects (e.g., terminals, security,                           31.5%

and land), another 31.5 percent for bond                        Percent of $57.3 Billion
interest payments, 16.7 percent for airside                           A         d
                                               Source: OIG analysis of FAA data
projects (e.g., runways, taxiways, and
equipment), 6.8 percent for access roadways, 4.8 percent for noise abatement, and
5.5 percent for the Denver International Airport (see figure 3). 17


16
   Under Vision 100, the AIP discretionary fund is subject to three statutory set-aside programs that benefit (1)
   noise compatibility planning to mitigate airport noise in surrounding communities, (2) the Military Airport
   Program to convert former military fields to civilian airfields, and (3) certain reliever airports.
17
   FAA tracks Denver’s PFC separately due to its large size and because it was used to fund the new airport, not
   specific projects.


                                                                                                             24
Currently, PFCs are capped at $4.50 per segment of flight (a maximum of $18.00 on a
round trip). The current cap on PFCs is an important matter for this Committee and
has significant implications for major airports’ capital expenditure plans. Over
75 percent (248 of 328 airports) of the airports collecting a PFC charge the maximum
amount. The current cap has led some airports to collect PFCs for extremely long
periods of time in order to cover the cost of their projects, including: Clarksburg,
West Virginia (50 years); Miami, Florida (34 years); Detroit, Michigan (25 years);
and Denver, Colorado (25 years). Overall, 45 percent of airports collecting a PFC
have set collection periods longer than 10 years. Other airports such as Chicago
O’Hare International, are anticipating future increases in the cap as part of their
financing plans. The funding of future airports projects and the level of AIP funding
and PFC charges will be important issues as Congress decides how best to finance
FAA.

An important issue regarding PFCs is FAA’s reliance on airport sponsors for PFC
oversight. Unlike AIP grants, DOT and FAA officials have concluded that the
Agency lacks clear authority to prevent airports from contracting with suspended or
debarred companies for projects funded by PFCs. This is significant because, of the
838 projects that FAA approved in FY 2006 to receive PFC funding, 194 are to be
funded solely by PFCs. Ninety-three others will be funded via PFCs and other non-
AIP funding sources. Moreover, of the associated $2.7 billion in approved PFC
collections, an estimated $1.8 billion (67 percent) will go for projects funded solely
by PFCs or a combination of PFC and other non-AIP funding sources. According to
FAA, however, companies suspended or debarred for committing fraud on other
Government contracts cannot be excluded from projects funded solely with PFCs.
Congress should consider legislation to address this risk area.

ACQUISITION AND CONTRACTING ISSUES
Providing increased attention to ensure that procurement and acquisition activities are
conducted in an efficient and effective manner and that taxpayer dollars are protected
from fraud and abuse is a Government-wide priority, and we have focused
significantly more audit and investigative resources on procurement and acquisition
issues. In our testimony today, we would like to highlight two specific watch areas
for FAA: support services contracts and the transition of flight services to contract
operations.

Support Services Contracts
FAA faces challenges for each phase of the acquisition cycle, including planning,
awarding, and administering support services contracts. In FY 2006, FAA obligated
about $930 million for support services using numerous contracts and three multiple-
award “umbrella” procurement programs.




                                                                                    25
In September 2006, we issued a report 18 on our review of the RESULTS program
(one of the three multiple-award programs), for which FAA has awarded about
$543 million since program inception. We found that the program was not properly
established or managed. Continued use of this program would cost FAA tens of
millions of dollars in higher costs. FAA terminated this procurement program in 2006
and started strengthening oversight of all support service contracts. FAA needs to pay
special attention to the following.

Verification of Labor Qualification and Rates: Labor costs generally account for
the largest portion of support service contract costs. Our RESULTS audit and FAA’s
own review identified incidents when contractor staff did not meet the expected
qualifications for positions billed. For example, we found that an employee on a
contract was originally billed as an administrative assistant at an hourly rate of $35.
Four months later, the same employee was billed as an analyst at an hourly rate of
$71 without any proof of additional qualifications. Verifying contract labor
qualification for the rates billed could potentially save FAA millions of dollars for
support services.

Based on our RESULTS audit, and as part of an Agency-wide initiative announced by
the FAA Administrator to strengthen internal controls over procurements, FAA
reviewed one of its other multiple-award programs, BITS II, and found similar
problems. For example, FAA found evidence that multiple contractors had
extensively billed FAA for employees at labor rates that were higher than their actual
education and experience warranted, as specified by terms of the contract.

FAA referred this matter to us for investigation. In one case, we found that a
contractor invoiced FAA for the services of an employee in the labor category of
“Senior Management Analyst” at a rate of $100 per hour, instead of the proper rate of
$40 per hour based on the employee’s qualifications. Specifically, the “Senior
Management Analyst” category required an individual with 12 years of direct
experience, yet the employee in question had only 2 years of experience. As a result
of our investigation to date, 12 of 13 contractors have agreed to repay a total of
$7.9 million in inflated billings under administrative settlements with FAA.

Review of Contractor-Proposed Prices: Our audit found that FAA awarded
contracts without sufficient competition and price analyses. FAA now requires that
the Deputy Administrator approve all new contracts valued over $1 million that are
awarded on a sole-source basis. While this is a step in the right direction, FAA still
needs to strengthen its review of contractor-proposed prices. When facing inadequate
competition from bidding contractors, FAA’s contracting officers are required to
perform a price analysis to assess the fairness of contractor-proposed prices. We

18
     OIG Report Number FI-2006-072, “Audit of the Federal Aviation Administration’s RESULTS National
     Contracting Service,” September 21, 2006.


                                                                                                 26
found that this control was not working in many incidents. For example, we found a
case where the Independent Government Cost Estimate was prepared by the
contractor to whom the contract was awarded. We plan to follow up on FAA’s use of
price and cost analysis techniques to ensure the reasonableness of prices in contract
proposals.

Controls Over the Conversion of Flight Service Stations to Contract
Operations
On February 1, 2005, FAA awarded a 5-year, fixed-price incentive contract (with
5 additional option years) to Lockheed Martin to operate the Agency’s 58 flight
service stations in the continental United States, Puerto Rico, and Hawaii. The
contract, worth about $1.8 billion, represents one of the largest non-defense
outsourcing of services in the Federal Government.

FAA anticipates that by contracting out flight service facilities, it will save
$2.2 billion over the 10-year life of the agreement. On October 4, 2005, Lockheed
Martin took over operations at the 58 flight service stations. We are currently
conducting a review of FAA’s controls over the conversion of flight service stations
to contract operations. We plan on issuing our interim report later this month.

Overall, we found that FAA has implemented effective controls over the initial
transition of flight service stations to contract operations. These controls include
contractual performance measures that require the contractor to achieve acceptable
levels of operational performance and service and internal mechanisms that oversee
the operational and financial aspects of the program.

We also found that the Agency uses these controls to monitor contract flight service
stations and, in some cases, penalizes the contractor for poor performance. To date,
FAA has imposed approximately $9 million in financial penalties against the
contractor for failing several contractual performance measures. FAA is requiring the
contractor to submit corrective action plans to resolve the deficient performance
measures. In addition, FAA and the contractor are now entering the next and most
critical phase of the transition.

In February, the contractor began efforts to complete, test, and implement a new
software operating system for flight service stations and consolidate the existing
58 sites into 3 hub and 16 refurbished locations—all by the end of July. 19 Any slips
in that schedule could have significant implications to the costs and anticipated
savings of the transition.



19
     One facility, which was originally planned to be refurbished, will now remain open until the end of the year;
     it will then be consolidated into the Leesburg hub.


                                                                                                              27
In addition, FAA could be facing further reductions to savings as Lockheed Martin is
requesting nearly $177 million in equitable adjustments to the contract. Most of that
adjustment ($147 million) is based on the contractor’s claim that it was not provided
the correct labor rates when it submitted its bid.

In April, FAA provided us with the first of its planned annual variance reports
comparing estimated and actual first-year costs. This is an important tool in that it
will allow FAA to identify cost overruns, determine the reasons for the overruns, and
allow for adjustments to ensure that savings are realized. We are currently reviewing
the completed variance report and assessing the contractor’s progress in executing the
next phase of the transition.

That concludes my statement, Madam Chairman. I would be happy to address any
questions you or other Members of the Subcommittee may have.




                                                                                   28
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
          FAA’s FY 2008 Budget Request: Key Issues Facing the Agency

                          Section 508 Compliant Presentation

Figure 1. FAA Capital Funding Projections for FY 2008 to FY 2012

Fiscal Year 2008                NextGen Funding      Remaining              Total
                                   $174,400,000   Facilities and $2,461,600,000
                                                     Equipment
                                                          Funds
                                                $2,287,200,000
 Fiscal Year 2009          NextGen Funding           Remaining              Total
                               $652,800,000       Facilities and $2,958,800,000
                                                     Equipment
                                                          Funds
                                                $2,306,000,000
 Fiscal Year 2010          NextGen Funding           Remaining              Total
                               $956,500,000       Facilities and $3,114,700,000
                                                     Equipment
                                                          Funds
                                                $2,158,200,000
 Fiscal Year 2011          NextGen Funding           Remaining              Total
                              $1,256,400,000      Facilities and $3,353,000,000
                                                     Equipment
                                                          Funds
                                                $2,096,600,000
 Fiscal Year 2012          NextGen Funding           Remaining              Total
                              $1,294,600,000      Facilities and $3,506,300,000
                                                     Equipment
                                                          Funds
                                                $2,211,700,000
Totals: The total NextGen funding projected for this period is $4,334,700,000. The
total Remaining Facilities and Equipment Funds projected for this period are
$11,059,700,000. The grand total (NextGen Funding plus Remaining Facilities and
Equipment Funds) is $15,394,400,000.

Note: NextGen Funding includes the Automatic Dependent Surveillance-Broadcast
Program, the System Wide Information Management Program, and future projects
supporting NextGen. Remaining Facilities and Equipment funds include funding for
the existing projects, facilities, and support service contracts. Total NextGen Fiscal
Year 2008 to Fiscal Year 2012 from the capital account is $4.3 billion.
Source: FAA National Airspace System Capital Investment Plan FY 2008 to FY 2012
Table 4. FAA Inspectors’ Workload

Commercial Air             123 Flight Instructors        90,555
Carriers

Repair Stations          4,927 FAA Designee              11,000
                               Representatives

Active Pilots         744,803 Aircraft                  347,326

Approved                 1,738 FAA-Licensed             320,293
Manufacturers                  Mechanics

Source: FAA


Figure 2. Airport Improvement Program Authorized Funding Levels, 1999 to 2007
(Dollars in millions)
   Fiscal Year 1999             Authorized Funding Level $2,410,000
   Fiscal Year 2000             Authorized Funding Level $2,475,000
   Fiscal Year 2001             Authorized Funding Level $3,200,000
   Fiscal Year 2002             Authorized Funding Level $3,300,000
   Fiscal Year 2003             Authorized Funding Level $3,400,000
   Fiscal Year 2004             Authorized Funding Level $3,400,000
   Fiscal Year 2005             Authorized Funding Level $3,500,000
   Fiscal Year 2006             Authorized Funding Level $3,600,000
   Fiscal Year 2007             Authorized Funding Level $3,700,000
                                                                               st
Sources: 1999-2003 Wendell H. Ford Aviation Investment and Reform Act for the 21 Century and
2004-2007 Vision 100-Century of Aviation Authorization Act
Figure 3. Approved Passenger Facility Charge Uses by Category Calendar Year 1992
to 2006
 Access Roadways         6.8 percent

 Airside Projects       16.7 percent

 Denver Airport          5.5 percent

 Interest Payments 31.5 percent

 Landside Projects 34.7 percent

 Noise Abatement         4.8 percent

Note: Table figures show percent of $57.3 billion approved.
Source: Office of Inspector General analysis of Federal Aviation Administration data
